 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


  THE CENTERS FOR MEDICARE &
  MEDICAID SERVICES AWARDED
    CONSUMER OPERATED AND
ORIENTED PLAN PROGRAM LOANS IN
   ACCORDANCE WITH FEDERAL
 REQUIREMENTS, AND CONTINUED
      OVERSIGHT IS NEEDED

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Daniel R. Levinson
                                                   Inspector General

                                                        July 2013
                                                      A-05-12-00043
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

 The Centers for Medicare & Medicaid Services awarded Consumer Operated and
 Oriented Plan program loans in accordance with Federal requirements. However, we
 identified factors through our review of the loan award process that call for continued
 oversight.

WHY WE DID THIS REVIEW

Starting in 2013, individuals and small businesses will be able to enroll in private health
insurance plans through State-based competitive marketplaces called Affordable Insurance
Exchanges (marketplaces). To expand the number of health plans available in the marketplaces,
the Patient Protection and Affordable Care Act (ACA), section 1322, established the Consumer
Operated and Oriented Plan (CO-OP) program. The ACA directed the Secretary of Health and
Human Services to provide loans to help establish new consumer-governed, nonprofit health
insurance issuers, referred to as CO-OPs, in every State. The Secretary delegated this
responsibility to the Centers for Medicare & Medicaid Services (CMS). We reviewed the
CO-OP program because of the large amount of funding for this new program and the short
timeframe in which the CO-OPs must be established and initiated.

Our objectives were to determine whether CMS awarded CO-OP loans to applicants in
accordance with Federal requirements and to identify factors that may affect the CO-OP
program.

BACKGROUND

The ACA provided $6 billion in funding for the CO-OP program. The ACA authorized the
Secretary of Health and Human Services to use this funding to make startup and solvency loans
to qualified applicants that intend to become nonprofit, consumer operated and oriented health
insurance issuers. CMS intended startup loans to assist CO-OP applicants with approved startup
costs. Solvency loans are intended to assist applicants with meeting the solvency requirements
of States in which the applicants seek to be licensed to issue CO-OP qualified health plans. All
CO-OP loans must be repaid with interest, and loans can be made only to private, nonprofit
entities that demonstrate a high probability of becoming financially viable.

The amount appropriated for the CO-OP program was subsequently reduced from $6 billion to
$3.4 billion. The American Taxpayer Relief Act of 2012, signed on January 2, 2013, further
reduced the $3.4 billion funding to the amount of obligated funds plus 10 percent of the
unobligated balance. As of January 2, 2013, CMS had awarded loans totaling $1.98 billion to 24
CO-OPs offering coverage in 24 States.

WHAT WE FOUND

CMS awarded CO-OP loans to applicants in accordance with Federal requirements. However,
we identified factors that may affect the CO-OP program. Specifically, we found that CO-OPs


CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                i
reported limited private monetary support and many CO-OPs’ estimated in their applications
budgeted startup expenditures that exceeded available funding.

Private support is one of the three selection factors that the ACA specifies will have priority in
the selection process. We saw little evidence of private monetary support in any of the 16
applications we reviewed. Additionally, 11 of 16 CO-OPs reported estimated startup
expenditures in their applications that exceeded the total startup funding ultimately provided by
CMS. If unforeseen circumstances (such as limited enrollment) or barriers (such as uncertainty
about operations of State-based or federally facilitated marketplaces or a State’s denial of
insurance licensure) impede CO-OPs from becoming operational, there is a risk that CO-OPs
could exhaust all startup loan funding before they are fully operational or before they earn
sufficient operating income to be self-supporting. This may affect the CO-OP program in the
long term.

We recommend that CMS monitor:

   •   CO-OPs to ensure startup funds are not exhausted before the CO-OPs become fully
       operational and

   •   CO-OPs’ solicitation of additional private monetary support.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our recommendations and
provided additional technical comments. We have addressed the technical comments as
appropriate. While we acknowledge CMS’s comments that a comparison of original startup
budget estimates with available funding does not fully reflect revised startup cost estimates and
the basis on which final loan amounts were determined, our analysis remains valid. The original
startup budget estimates made up a substantial portion of the applications. Applicants used these
figures extensively in their budgets, budget narratives, pro forma financial statements, loan
funding schedules, and feasibility studies. While we obtained the Disbursement Schedules
referenced by CMS, the borrowers are startup ventures, and it is reasonable to expect that
business plans and budgets will evolve throughout the startup period. The estimated startup
costs in some applications suggest that actual startup costs could exceed the startup costs that
were budgeted for purposes of the loan amounts.




CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                  ii
                                                    TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................1

           Why We Did This Review. .......................................................................................1

           Objectives...................................................................................................................1

           Background ............................................................................................................... 1
                 Federal Funding for the Consumer Operated and Oriented Plan
                    Program .....................................................................................................1
                 Review and Selection Process: How the Centers for Medicare &
                    Medicaid Services Makes a Consumer Operated and Oriented
                    Plan Loan Award ......................................................................................1
                 Number of Consumer Operated and Oriented Plan Loans Awarded ..............2

           How We Conducted This Review ............................................................................ 2

FINDINGS .............................................................................................................................3

           The Centers for Medicare & Medicaid Services Awarded Consumer
              Operated and Oriented Plan Loans in Accordance With Federal
              Requirements.......................................................................................................3

           Factors That May Affect the Consumer Operated and Oriented Plan
              Program ...............................................................................................................4
                 Consumer Operated and Oriented Plans Reported Limited
                     Private Monetary Support .........................................................................4
                 Startup Expenditures Could Exceed Available Funding ................................ 5

RECOMMENDATIONS......................................................................................................6

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
 AND OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................7

APPENDIXES

           A: Audit Scope and Methodology...........................................................................8

           B: Federal Requirements for the Consumer Operated and Oriented
              Plan Program ....................................................................................................10

           C: Centers for Medicare & Medicaid Services Comments ................................12



CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                                                         iii
                                        INTRODUCTION

WHY WE DID THIS REVIEW

Starting in 2013, individuals and small businesses will be able to enroll in private health
insurance plans through State-based competitive marketplaces called Affordable Insurance
Exchanges (marketplaces). To expand the number of health plans available in the marketplaces,
the Patient Protection and Affordable Care Act, P.L. No. 111-148 (ACA), section 1322,
established the Consumer Operated and Oriented Plan (CO-OP) program. The ACA directed the
Secretary of Health and Human Services to provide loans to help establish new consumer-
governed, nonprofit health insurance issuers, referred to as CO-OPs, in every State. The
Secretary delegated this responsibility to the Centers for Medicare & Medicaid Services (CMS).
We reviewed the CO-OP program because of the large amount of funding for this new program
and the short timeframe in which the CO-OPs must be established and initiated.

OBJECTIVES

Our objectives were to determine whether CMS awarded CO-OP loans to applicants in
accordance with Federal requirements and to identify factors that may affect the CO-OP
program.

BACKGROUND

Federal Funding for the Consumer Operated and Oriented Plan Program

The ACA provided $6 billion in funding for the CO-OP program. The ACA authorized the
Secretary of Health and Human Services to use this funding to make startup and solvency loans
to qualified applicants that intend to become nonprofit, consumer operated and oriented health
insurance issuers. CMS intended startup loans to assist CO-OP applicants with approved startup
costs. Solvency loans are intended to assist applicants with meeting the solvency requirements
of States in which the applicants seek to be licensed to issue CO-OP qualified health plans. All
CO-OP loans must be repaid with interest, and loans can be made only to private, nonprofit
entities that demonstrate a high probability of becoming financially viable.

Two subsequent acts rescinded portions of the ACA section 1322(g) appropriation. Section 1857
of P.L. No. 112-10 rescinded $2.2 billion made available for the CO-OP program, and section
524 of P.L. No. 112-74 rescinded another $400 million. As a result of these acts, $3.4 billion
was appropriated for the CO-OP program. The American Taxpayer Relief Act of 2012, signed
on January 2, 2013, further reduced the $3.4 billion of CO-OP funding to the amount of
obligated funds plus 10 percent of the unobligated balance.

Review and Selection Process: How the Centers for Medicare & Medicaid
Services Makes a Consumer Operated and Oriented Plan Loan Award

To assist CMS in reviewing applications and awarding CO-OP program loans, CMS contracted
with Deloitte LLC (Deloitte). Under the contract, Deloitte is responsible for reviewing all


CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                            1
aspects of each loan application using standards explained in the Final Rule 1 and the guidelines
and metrics in the Funding Opportunity Announcement. 2 Specifically, Deloitte is required to:
(1) give recommendations to CMS staff on the reasonableness of the application; (2) evaluate the
applicant’s financial models and business plans; (3) assess the applicant’s ability to meet the
regulatory standards and loan agreement milestones; (4) evaluate the likely long-term
sustainability of the CO-OP; and (5) confirm the applicant’s adherence to the goal of consumer
operation and orientation. The Funding Opportunity Announcement states that Deloitte will
recommend a loan amount and a schedule of disbursements for each approved applicant on the
basis of the information provided in the application and supporting documentation.

CMS program officials make final award decisions. The Funding Opportunity Announcement
states that CMS program officials will consider the following factors when making award
decisions: (1) external reviewers’ recommendations, (2) the size of the loan request and
anticipated results of funding the application, (3) the applicant’s ability to repay the loan, and
(4) the likelihood that the proposed project will meet CO-OP program objectives.

Number of Consumer Operated and Oriented Plan Loans Awarded

CMS accepted applications through December 31, 2012. As of January 2, 2013, CMS awarded
loans totaling $1.98 billion to 24 CO-OPs offering coverage in 24 States. Although CMS
successfully awarded 24 CO-OP loans, enactment of the American Taxpayer Relief Act of 2012
left CMS without authority or funding to award loans to new applicants. 3 Therefore, CMS did
not review the applications received in the last cycle of the Funding Opportunity Announcement,
which ended December 31, 2012.

HOW WE CONDUCTED THIS REVIEW

We reviewed the 51 CO-OP applications submitted to CMS from July 28, 2011, through
January 3, 2012. We determined whether Deloitte appropriately evaluated applicants,
consistently applied the Funding Opportunity Announcement point system, and ensured
applicants had a governance structure that complied with ACA requirements. We also identified
factors that may affect the CO-OP program. For the 16 CO-OP loans awarded as of June 22,
2012, we reviewed their private support and proposed expenditures. We judgmentally selected
four applications to review in detail to determine whether the CO-OP applications and the
selection process were adequately documented.

This report presents our assessment of the CO-OP program as it existed during our fieldwork.
We plan to perform additional reviews of the CO-OP program, including reviews of selected
CO-OP loan awardees, to determine whether those awardees used funds appropriately and had
adequate financial and accounting controls.
1
 Patient Protection and Affordable Care Act; Establishment of Consumer Operated and Oriented Plan
(CO-OP) (“Final Rule”), 76 Fed. Reg. 77392 (Dec. 13, 2011).
2
 Loan Funding Opportunity Number OO-COO-11-001 was released July 28, 2011, and revised effective
December 9, 2011.
3
    As a result, CMS will likely be unable to operate the CO-OP program in all 50 States and the District of Columbia.

CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                                  2
The details of our audit scope and methodology are included as Appendix A, and Federal
requirements for the CO-OP program are included as Appendix B.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                            FINDINGS

CMS awarded CO-OP loans to applicants in accordance with Federal requirements. However,
we identified factors that may affect the CO-OP program. Specifically, we found that CO-OPs
reported limited private monetary support, and many CO-OPs’ estimated in their applications
budgeted startup expenditures that exceeded available funding.

THE CENTERS FOR MEDICARE & MEDICAID SERVICES AWARDED
CONSUMER OPERATED AND ORIENTED PLAN LOANS IN
ACCORDANCE WITH FEDERAL REQUIREMENTS

CMS awarded CO-OP loans to applicants in accordance with Federal requirements.

The Funding Opportunity Announcement provided specific criteria listing information that
CO-OP applicants had to include in their applications to be considered for a CO-OP loan. The
evaluation criteria included three ACA statutory selection preferences: (1) providing an
integrated care model, (2) offering statewide coverage, and (3) having evidence of private
support. In addition, applicants were required to provide a project narrative, feasibility study,
and business plan that included information about the CO-OP’s governance structure.

Deloitte determined whether each applicant submitted the basic necessary materials in its
application. If the applicant did not, Deloitte requested additional documentation. If the
applicant included all materials, Deloitte evaluated the applicant using the scoring criteria
established in the Funding Opportunity Announcement. Following that evaluation, Deloitte
prepared a summary scoring report for CMS to use in determining whether the applicant should
be awarded a loan.

The scoring reports for the 51 applications that CMS received as of January 3, 2012, were
detailed and included sufficient support to address the evaluation criteria. From the scoring
reports, we judgmentally selected four applications to review in detail to determine whether the
CO-OP applications and the selection process were adequately documented and followed
requirements. CMS awarded loans to three of the four applicants. We confirmed that the three
awardees met evaluation criteria and were appropriately selected. We confirmed that CMS did
not provide a CO-OP award to the fourth applicant. Of the four applications that we reviewed in
detail, each applicant submitted a voluminous amount of documentation as part of its application
package. Application package documents included support for each of the elements required in
the Funding Opportunity Announcement.


CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                 3
FACTORS THAT MAY AFFECT THE CONSUMER OPERATED AND
ORIENTED PLAN PROGRAM

Although CMS awarded CO-OP loans to applicants in accordance with Federal requirements, the
following factors may affect the CO-OP program.

Consumer Operated and Oriented Plans Reported Limited Private Monetary Support

Private support, as described in the Funding Opportunity Announcement, includes monetary
support, in-kind support, letters of intent from key stakeholders, or letters of support from key
community leaders. Private support is one of the three selection factors that the ACA specifies
will have priority in the selection process. 4 Monetary support is key to ensure CO-OPs are not
relying solely on borrowed funds for initial operations and to safeguard the long-term
sustainability of the CO-OP. We saw little evidence of monetary support in any of the 16
applications we reviewed. 5 Figure 1 shows the ratio of monetary support noted in the
applications to actual startup funds awarded to the 16 CO-OPs that received awards by the end of
our fieldwork. For the 16 approved applicants, monetary support listed in the applications
ranged from $0 to $250,000 (i.e., zero to 1.78 percent of the startup loan amount). Eight of the
sixteen approved applicants reported no monetary support, and so their data points are on the
vertical axis.




4
 Preference for private support was 5 points of the total 100 points available in the Funding Opportunity
Announcement.
5
  Even though there was evidence of other types of private support, we could not always quantify them
(e.g., donated professional services).


CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                         4
                   Figure 1: Minimal Monetary Support in Applications vs.
                          Amount of Startup Loans for 16 Awardees


           Startup Loans
           $25,000,000




           $20,000,000
                                0.13%                     0.80%
                                                     0.73%                   1.45%

           $15,000,000             0.27%



           $10,000,000
                               0.35%
                                    0.71%         1.78%
            $5,000,000




                   $-
                         $-    $50,000     $100,000 $150,000 $200,000 $250,000 $300,000
                                 Monetary Support in Applications


We recognize that alternative sources of funding may become available to applicants that were
awarded CO-OP loans. However, the limited private monetary support reported in the CO-OPs’
applications may affect the CO-OPs and the CO-OP program if CO-OPs expend all available
funds before becoming fully operational.

Startup Expenditures Could Exceed Available Funding

Each CO-OP application contained a proposed budget with estimated startup expenditures, as
required by the Funding Opportunity Announcement. In their applications, 11 of 16 CO-OPs
reported estimated startup expenditures that exceeded the total startup funding ultimately
provided by CMS. During contract negotiations with CMS, the startup estimates were revised to
an amount equal to the startup loan awards. CMS intended startup loans to assist CO-OP
applicants with startup costs. Approved startup costs include salaries and wages, fringe benefits,
consultant costs, equipment, supplies, staff travel, and approved indirect costs.

Figure 2 compares the estimated startup expenditures, as reported in the applications, with the
actual startup loan awards. The ratios of estimated startup expenditures to the amounts of startup
loans awarded varied from a low of 85 percent to a high of 170 percent. Eleven of sixteen

CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                              5
CO-OPs estimated startup expenditures in their applications that exceeded the amount of the
startup loan.

               Figure 2: Estimated Startup Expenditures in Applications and
                                Amount of Startup Loans




If unforeseen circumstances (such as limited enrollment) or barriers (such as uncertainty about
operations of the State-based or federally facilitated marketplaces or a State’s denial of insurance
licensure) impede CO-OPs from becoming operational, there is a risk that CO-OPs could exhaust
all startup loan funding before they are fully operational or before they earn sufficient operating
income to be self-supporting. This may affect the CO-OPs and the CO-OP program in the long
term.

                                    RECOMMENDATIONS

We recommend that CMS monitor:

   •   CO-OPs to ensure startup funds are not exhausted before the CO-OPs become fully
       operational and

   •   CO-OPs’ solicitation of additional private monetary support.




CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                6
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our recommendations and
provided additional technical comments. We have addressed the technical comments as
appropriate. While we acknowledge CMS’s comments that a comparison of original startup
budget estimates with available funding does not fully reflect revised startup cost estimates and
the basis on which final loan amounts were determined, our analysis remains valid. The original
startup budget estimates made up a substantial portion of the application. Applicants used these
figures extensively in their budgets, budget narratives, pro forma financial statements, loan
funding schedules, and feasibility studies. While we obtained the Disbursement Schedules,
referenced by CMS, the borrowers are startup ventures, and it is reasonable to expect that
business plans and budgets will evolve throughout the startup period. The estimated startup
costs in some applications suggest that actual startup costs could exceed the startup costs that
were budgeted for purposes of the loan amounts. CMS’s comments, excluding technical
comments, are included as Appendix C.




CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                             7
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed 51 CO-OP applications submitted to CMS from July 28, 2011, through January 3,
2012. We determined whether Deloitte appropriately evaluated applicants, consistently applied
the Funding Opportunity Announcement point system, and ensured applicants had a governance
structure that complied with ACA requirements. We also identified factors that may affect the
CO-OP program.

We limited our internal control review to obtaining an understanding of the CO-OP application
and selection process used to award CO-OP loans. We did not review the overall internal control
structure of CMS or Deloitte.

This report presents our assessment of the CO-OP program as it existed at the time of our
fieldwork. We plan to perform additional reviews of the CO-OP program, including reviews of
selected CO-OP awardees to determine whether they used funds appropriately and had adequate
financial and accounting controls.

We performed our fieldwork in the District of Columbia and Madison, Wisconsin, from May to
October 2012.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and other guidance;

   •   coordinated CO-OP program review efforts with OIG’s Office of Evaluation and
       Inspections to ensure OIG provides optimal coverage of the CO-OP program;

   •   compared ACA appropriations for the CO-OP program with funds to be obligated for
       startup and solvency loans;

   •   held discussions with CMS and Deloitte officials to obtain an understanding of the
       policies and procedures related to the award of CO-OP loans;

   •   reviewed Deloitte’s proposal, contract, and qualifications;

   •   analyzed data from CO-OP applications, summary score reports, and loan agreements;

   •   selected four applicants for detailed review of the application documentation, summary
       score reports, interview narrative, final award decisions made by CMS program officials,
       and loan agreement; for the applicants selected:



CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                             8
                                                                                     APPENDIX A

           ○ Deloitte recommended awarding loans to three applicants and CMS agreed and

           ○ Deloitte recommended awarding a loan to one applicant but CMS did not award
             the loan;

   •   compared CO-OP applicants’ funding requests with loan amounts awarded; and

   •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                            9
          APPENDIX B: FEDERAL REQUIREMENTS FOR THE CONSUMER
                 OPERATED AND ORIENTED PLAN PROGRAM

Establishment of the Consumer Operated and Oriented Plan

Section 1322 of the ACA directs the Secretary of Health and Human Services to establish the
CO-OP program; 45 CFR part 156 implements section 1322 of the ACA.

The final rule at 45 CFR 156, Patient Protection and Affordable Care Act; Establishment of
Consumer Operated and Oriented Plan (CO-OP) Program, (1) sets forth the eligibility standards
for the CO-OP program, (2) establishes the terms for loans, and (3) provides basic standards that
organizations must meet to participate in this program and become CO-OPs.

The ACA expressly prohibits the participation of issuers, related entities, or the predecessors of
either in the CO-OP program. A CO-OP is a loan recipient that satisfies the standards of 45 CFR
§ 156.515 within the timeframes specified (45 CFR § 156.505). Those standards define
eligibility, governance requirements, and health plan issuance. To remain consumer-run, private,
and nonprofit, the insurers must be consumer governed, their board of directors must be elected
by its membership, and the consumers should play a role in the development of the insurer.

Section 1322(b)(2)(A) of the ACA directs the Secretary to ensure that there is sufficient funding
to establish at least one CO-OP in each State and to give priority to organizations that can offer
these CO-OP qualified health plans statewide, provide integrated care, and have significant
private support.

Affordable Care Act Funding

The ACA section 1322(g) appropriation provided $6 billion in funding for the CO-OP program.
Two subsequent acts rescinded portions of that appropriation. Section 1857 of P.L. No. 112-10
(Department of Defense and Full-Year Continuing Appropriations Act, 2011) rescinded
$2.2 billion made available for the CO-OP program, and section 524 of P.L. No. 112-74
(Consolidated Appropriations Act, 2012) rescinded another $400 million. As a result of these
acts, $3.4 billion was appropriated for the CO-OP program.

American Taxpayer Relief Act of 2012
Consumer Operated and Oriented Plan Program Contingency Fund

Section 644 of the American Taxpayer Relief Act of 2012 states the Secretary of Health and
Human Services must establish a fund to provide assistance and oversight to qualified nonprofit
health insurance issuers that have been awarded loans or grants under section 1322 of the ACA
(42 U.S.C. 18042) before its enactment date. From the funds appropriated under section 1322(g)
of the ACA, 10 percent of the unobligated balance of funds are transferred to remain available
until expended and any remaining unobligated amounts, as of the date of enactment of the
American Taxpayer Relief Act of 2012, are rescinded.




CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                              10
                                                                                               APPENDIX B


Funding Opportunity Announcement

The Funding Opportunity Announcement, 6 as established by the Catalog of Federal Domestic
Assistance Number 93.545, provides detailed information regarding the application and award
administration process for the CO-OP program. The Funding Opportunity Announcement
indicates that CMS will obtain the services of a contractor to “provide, establish, and manage
qualified expert, objective panels responsible for reviewing the applications received under the
CO-OP program and providing recommendations to CMS staff on the reasonableness of the
application; financial models and business plan; the likely long-term sustainability of the plan;
and adherence to the health policy goal of consumer operation and orientation.”

As described in the Funding Opportunity Announcement, loan applicants are evaluated on the
basis of a 100-point scale. Points are awarded in five broad categories: (1) ACA statutory
preferences, (2) project narrative, (3) business plan, (4) governance and licensure, and
(5) feasibility study. Points awarded for the business plan constitute the majority of all available
points.




6
    The Funding Opportunity Announcement was released July 28, 2011, and revised effective December 9, 2011.

CMS Awarded CO-OP Program Loans in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                            11
                    APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES 

                                         COMMENTS 



   #"'f<,P..'IC€.,~· '



  (~4-                     DEPARTMENT OF HEALTH & HUMAN SERVICES                                           Centers for Medicare & Medicaid Services


                                                                                                           Administrator
                                                                                                           Washington, DC 20201




                         DATE:           HAY 3 0 2013

                         TO:            Daniel R. Levinson
                                        Inspecto r General

                         FROM:


                         SUBJECT:     Office of the Inspector General (OIG) Draft Report: "The Center s for Medicare
                         & Medicaid Services A warded Consumer Operated and Oriented Plan Program Loans in
                         Accordance With Federal Requirements, but Continued Oversight Is Needed" (A-05-12-00043)

                         Thank you for providing the Centers for Medicare & Medicaid Services (CMS) with the opportunity to
                         comment on the above subject OIG Draft Report. OIG ' s objective was to determine whether the
                         Consumer Operated and Oriented Plan (CO-OP) program selection process appropriately awards loans to
                         e ligible private, nonprofit organizations with a governance structure that complies with the Affordable
                         Care Act requirements. OIG found C MS awarded CO-OP loans to applicants in accordance with Federal
                         requirements.

                         The CMS greatly appreciates the work ofOIG in reviewing our program and the finding that awards were
                         made in accordance with Federal Requirements. Fu rther, CMS believes it is important to closely monitor
                         CO-OP' s to ensure they are meeting program goals and will be able to repay loans. CMS would like to
                         provide some additional context for the related findings and highlight those elements of the program
                         design in place to mitigate the risks identified. OIG recommendations and CMS response to those
                         recommendations are discussed below.

                         OIG Recommendation 1

                         CMS monitor CO-OPs to ensure start-up funds are not exhausted before the CO-OPs become full y
                         operational.

                         CMS Response

                         T he CMS concurs with this recommendation. We believe reference to start-up expenditures exceeding
                         available fu nding does not fu lly reflect the sequence ofevents and the basis on wh ich final loan amounts
                         were determined. Specifically, several places in the draft report, includ ing the Executive Summary, O IG
                         appears to identify estimates of start-up costs in initial CO-OP loan applications as the definitive
                         statements of actual expected costs. Applicants selected for contract negotiations, however, extensively
                         revised stan-up cost estimates during negotiations and now account for all start-up costs identified by
                         each CO-OP. The start-up loan amount awarded in each case was set to match this final budget as agreed
                         to by the borrower and CMS. The final budget, in the form ofa Disbursement Schedule with specific
                         required deliverables and milestones, is included as an appendix to each loan.

                         The CMS recognizes the importance of continued monitoring and oversight of the loan portfolio to assure
                         sufficient fundi ng. The borrowers are start-up ventures and it is reasonable to expect that business plans
                         and budgets wi ll evolve throughout the start-up period . In recognition of this, the CO-OP loan agreement




C.MSAwarded CO-OP Progrcon loCO'IS in Accordance With Federal Requirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                                                                   12
              Page 2 - Daniel R. Levinson

              provides a mechanism for borrowers to request additional funding. Even after the most recent rescissions
              under the American Taxpayer Relief Act of20 12, CMS retains both authority and available funding to
              cover additional funding requests from our 24 exi sting borrowers.

              OIG Recommendation 2

              CMS monitor CO-OPs' solicitation ofadditional private monetary support.

              CMS Resoonse

              The CMS concurs with the recommendation, particularly with regard to any bank financing or
              commercial credit. Please see technical comment #2 for additional context.' In addition, we feel it is
              worth noting in the recommendation section that this is one example of many performance and
              compliance measures we will be monitoring during loan servicing.

              The CMS thanks OIG for the work done on this issue and looks forward to working with OIG in the
              future.




7
 Technical comments in the auditee's response to the draft have been omitted from the final repmt, and all
appropriate changes have been made.

CMS Awarded CO-OP Prog ram Loans in A ccordance With Federal R equirements, and Continued
Oversight Is Needed (A-05-12-00043)                                                                                      13
